                               Office of Inspector General
DEPARTMENT OF HOMELAND SECURITYU.S. Department of Homeland Security
                               Washington, DC 20528


    Office of Inspector General



    Hurricane Katrina Multitier Contracts 





OIG-08-81                                 July 2008
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                          July 15, 2008

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General was established by
the Homeland Security Act of 2002 (Public Law 107-296), by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared
as part of our oversight responsibilities to promote economy, efficiency, and effectiveness
within the department.

This report addresses multitier contracting issues in the aftermath of Hurricane Katrina and the
potential effect of recent legislation enacted to control the excessive use of subcontractors that
do not contribute substantially to the contracted work. It is based on interviews with
employees and officials of relevant agencies and federal contractors, direct observations, and a
review of applicable documents.

The analysis herein has been developed to the best knowledge available to our office, and has
been discussed with those responsible for DHS contracting. It is our hope that this report will
result in more effective, efficient, and economical operations. We express our appreciation to
all of those who contributed to the preparation of this report.




                                              Richard L. Skinner 

                                              Inspector General 

Table of Contents/Abbreviations 



Executive Summary ............................................................................................................................ 1 


Background ......................................................................................................................................... 2 


Results of Review ............................................................................................................................... 4 


             Extent of Multiple Subcontracting Tiers .............................................................................. 4 


             Effect of Subcontracts on Costs ........................................................................................... 5


             Prime Contractors Use of Small and Local Businesses ....................................................... 7 


             Effect of Post-Katrina Act on Future Disaster Contracting ................................................. 9 


             Legislative Update ............................................................................................................. 11 


             Conclusion and Recommendation ..................................................................................... 12 


             Miscellaneous Issue ........................................................................................................... 13 


             Management Comments and OIG Evaluation ................................................................... 13 


Appendices
     Appendix A:             Purpose, Scope, and Methodology .................................................................... 14 

     Appendix B:             Management Comments to the Draft Report .................................................... 16 

     Appendix C:             Public Law 109-295, Title VI, Section 692 ....................................................... 18 

     Appendix D:             Public Law 109-364, Title VIII, Section 852 .................................................... 19 

     Appendix E:             Major Contributors to this Report ..................................................................... 21 

     Appendix F:             Report Distribution ............................................................................................ 22 


Abbreviations
DHS                          Department of Homeland Security 

FAR                          Federal Acquisition Regulation 

FEMA                         Federal Emergency Management Agency 

IA-TAC                       Individual Assistance Technical Assistance Contract 

NDAA                         John Warner National Defense Authorization Act for Fiscal Year 2007 

OFPP                         Office of Federal Procurement Policy 

OIG                          Office of Inspector General 

Post-Katrina Act             Post - Katrina Emergency Management Reform Act of 2006 

USACE                        United States Army Corps of Engineers 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                We initiated this audit in response to Congressional concerns that, in the wake
                of hurricanes Katrina and Rita, multitier subcontracting (1) increased costs to
                the government, (2) limited opportunities for small and local businesses to
                participate in response and recovery efforts, and (3) resulted in layers of
                subcontractors being paid profit and overhead while adding little or no value
                to the work performed under the contract. Our objectives were to determine
                the validity of these concerns, as well as to determine the potential effect
                Section 692 of the Post-Katrina Emergency Management Reform Act of 2006
                could have on future disaster contracting.

                It does not appear that multitier subcontracting, as an isolated factor, caused
                significant increases in costs to the government, nor did it reduce
                subcontracting opportunities for small and local businesses. The prime
                contractors subcontracted a significant amount of the value of their contracts
                to small and local businesses.

                Although FEMA relied on large national prime contractors, initially
                preventing small and local businesses from participating as prime contractors
                themselves, the national prime contractors generally did well hiring small and
                local subcontractors. However, because subcontractor invoices generally do
                not include specific information on lower tier subcontractors, we could not
                determine how many layers of subcontracting existed on contracts or whether
                any layers involved contractors charging profit without contributing
                substantially to the work being performed on the contract.

                Although Section 692 of the Post-Katrina Emergency Management Reform
                Act of 2006 would limit subcontracting to 65% of total contract costs, nothing
                in this legislation specifically restricts the number of tiers of subcontractors.
                Further, by limiting subcontracting, Section 692 could restrict funding
                available to small and local businesses while potentially impairing FEMA’s
                ability to respond quickly to future catastrophic disasters. The Department of
                Defense has promulgated less restrictive rules to control multitiering that
                reduce the risks inherent in Section 692. Therefore, we recommend FEMA
                officials work with DHS officials, the Office of Federal Procurement Policy
                and Congress to promulgate less restrictive rules over multitier contracting.



                           Hurricane Katrina Multitier Contracts

                                          Page 1
Background
                          Hurricane Katrina, which struck the Gulf Coast on August 29, 2005, was the
                          most destructive and costly natural disaster in United States history. It caused
                          over $81 billion in estimated property damage and resulted in more than 1,500
                          deaths. Three weeks later, Hurricane Rita also struck the Gulf Coast, making
                          landfall just west of where Katrina came ashore. In the wake of these two
                          storms, the Federal Emergency Management Agency (FEMA) received 2.4
                          million applications for individual assistance. Faced with unprecedented
                          needs for assistance, the federal government turned to contractors to play an
                          essential role in its disaster response.

                          A massively destructive storm hitting a metropolitan area, coupled with
                          insufficient predisaster acquisition planning and the need for an immediate
                          and urgent response and recovery effort, compelled the federal government to
                          primarily rely on large prime contractors rather than contract directly with
                          small and local businesses. These large prime contractors had the financial
                          strength and operational expertise to immediately manage billion-dollar
                          projects and possessed the ability to plan, coordinate, and hire resources to
                          respond quickly to the disaster. These contractors and their subcontractors
                          removed over 99 million cubic yards of debris, temporarily repaired 109,000
                          roofs, and installed approximately 120,000 trailers–at times installing an
                          average of 500 trailers per day.

                          In the aftermath of Hurricane Katrina, Congress enacted the Post-Katrina
                          Emergency Management Reform Act of 2006, which was adopted as Title VI
                          of the Department of Homeland Security Appropriations Act of 2007 (P.L.
                          109-295, Title VI – National Emergency Management) (hereinafter referred to
                          as the Post-Katrina Act). Section 692 of the Post-Katrina Act, “Limitations on
                          Tiering of Subcontractors,” is intended to address what many in Congress and
                          the small business community, particularly in the hurricane-affected areas, felt
                          was excessive tiering of subcontracts. The tiering was due to layers of
                          subcontractors between the prime contractor and the subcontractor that
                          actually performs the work, which result in additional costs without serving a
                          legitimate purpose or adding value to the work under the contract.1

                          Section 692 of the Post-Katrina Act requires the Secretary of Homeland
                          Security to promulgate regulations to minimize the excessive use by
                          contractors of subcontractors, or tiers of subcontractors, to perform the

1
  Congress also included a provision in the John Warner National Defense Authorization Act for Fiscal Year 2007
(NDAA) (P.L. 109-364) that requires the Department of Defense to issue regulations addressing “excessive pass-through
charges” on subcontracts under certain prime contracts (See Appendix C).


                                      Hurricane Katrina Multitier Contracts

                                                       Page 2
                              principal work of the contract. The law specifies that the regulations must
                              require, at a minimum, that a contractor may not use subcontracts for more
                              than 65% of the cost of the contract or the cost of any individual task or
                              delivery order not including overhead and profit, unless the Secretary
                              determines that such requirement is not feasible or practicable (Appendix B).

                              Although Section 692 of the Post-Katrina Act limits subcontracting to 65% of
                              total contract costs, nothing in the Post-Katrina Act specifically restricts the
                              number of tiers of subcontractors. Further, by limiting subcontracting, the
                              Post-Katrina Act could restrict funding available to small and local businesses
                              while potentially impairing FEMA’s ability to respond quickly to future
                              catastrophic disasters. (See page 9 for further discussion.)

                              While the large prime contractors had the financial and operational assets to
                              step in and manage large projects, they did not necessarily have the personnel
                              and material to perform all of the work themselves. They did have the ability
                              to plan, coordinate, and hire resources more quickly than the federal
                              government. As a result, these companies made extensive use of
                              subcontractors. However, during Congressional testimony, local business
                              representatives expressed concern that they were excluded from participating
                              in disaster contracting. Small business representatives also suggested that
                              prime contractors allowed multiple layers of unnecessary and costly
                              subcontracts—a practice referred to as multitiering.2

                              While this report focuses on FEMA contracts, it should be noted that the U.S.
                              Army Corps of Engineers (USACE) was engaged by FEMA for two major
                              initiatives that also involved extensive subcontracting—debris removal and
                              Operation Blue Roof. Under the Operation Blue Roof program, contractors
                              and their subcontractors covered damaged roofs with blue plastic tarps to help
                              prevent further property damage until more permanent repairs could be made.3
                              Figure 1 shows an example of this program.




2
    Multitiering as used in this report is defined as more than one vertical layer of subcontractors under a prime contractor.
3
    A review of Operation Blue Roof is available at http://www.dodig.osd.mil/Audit/reports/FY07/07-038.pdf.


                                           Hurricane Katrina Multitier Contracts

                                                             Page 3
                Figure 1: FEMA Trailer and House with “Operation Blue Roof” Tarp




                Source: FEMA


Results of Review
                Although we could not readily determine the extent of multitier contracting in
                the contracts we reviewed, we do not believe multitier contracting, as an
                isolated factor, caused higher costs or resulted in less opportunity for small
                and local businesses to participate in disaster response and recovery efforts.

                We believe Section 692 of the Post-Katrina Act may adversely affect future
                disaster response and recovery contracting by reducing the funds available to
                small and local businesses while potentially impairing FEMA’s ability to
                respond quickly to catastrophic disasters. Although Section 692 was
                designed, in part, to minimize the excessive use of tiers of subcontractors, it
                does not specifically restrict the number of tiers of subcontractors allowed on
                a contract.

     Extent of Multiple Subcontracting Tiers
                We could not readily determine the extent of subcontracting tiers because
                subcontractor invoices typically do not include information on lower-tier
                subcontractors. The Federal Acquisition Regulation (FAR) 52.209 instructs
                the contracting officer to insert into cost-reimbursement contracts the clause at
                FAR Part 52.215-2, Audit and Records. This clause provides that the
                government shall have the right to audit contractor records. Fixed priced
                contracts do not include this clause, and other than investigations regarding


                          Hurricane Katrina Multitier Contracts

                                          Page 4
                           fraud or other improprieties, no audit privilege exists. No federal or state
                           laws, regulations, or contract terms required the prime contractors or
                           subcontractors to submit cost information for lower-tier, fixed-unit-rate
                           subcontracts. Furthermore, it is not a common business practice for a
                           subcontractor to disclose the identity of, or amounts paid to, lower-tier
                           subcontractors. We reviewed $236 million (12%) of $2.04 billion in
                           Individual Assistance Technical Assistance Contract (IA-TAC) subcontractor
                           invoices (See Appendix A). Few of these invoices included cost or other
                           information on lower-tier subcontractors. Generally, the IA-TAC
                           subcontractor invoices we reviewed described the type and location of the
                           work performed and the amount charged, but provided no further details.

         Effect of Subcontracts on Costs
                           Unnecessary tiers of subcontractors may have existed in the aftermath of
                           Hurricane Katrina. Business representatives and media sources provided
                           anecdotal accounts of multiple subcontracting tiers, at times five and six levels
                           deep, in some cases generating “excessive pass-through charges.”4 However,
                           in the invoices we reviewed, multitier subcontracting as an isolated factor was
                           not a significant cause of higher costs. This was because all four IA-TAC
                           prime contractors paid subcontractors based on fixed unit rates for the
                           majority of their work (84% of the $236 million reviewed). Fixed-unit-rate
                           contracts do not allow subcontractors to pass overhead and other operating
                           costs above the agreed-upon fixed rate to prime contractors.

                           Once the federal government and the prime contractor agree on a price for a
                           particular service, and the prime contractor issues a fixed-price subcontract,
                           the number of tiers of subcontractors has no effect on the cost to the
                           government. What might be a legitimate concern is whether the agreed-upon
                           contract price between the government and the prime contractor is too high or
                           whether the contractor subcontract rates were excessive.

                           Another potential concern is when the subcontractor that actually performs the
                           work is paid an amount significantly lower than that paid by the government
                           to the prime contractor. There also may be a perception of unfairness when it
                           is believed that some tiers simply charge overhead and profit without

4
  As defined in NDAA, “the term ‘excessive pass-through charge’, with respect to a contractor or subcontractor that adds
no, or negligible, value to a contract or subcontract, means a charge to the Government by the contractor or subcontractor
that is for overhead or profit on work performed by a lower-tier contractor or subcontractor (other than charges for the
direct costs of managing lower-tier contracts and subcontracts and overhead and profit based on such direct costs).” See
also GAO, Defense Contracting: Contract Risk a Key Factor in Assessing Excessive Pass-Through Charges, GAO-08-
269, January 2008.


                                       Hurricane Katrina Multitier Contracts

                                                         Page 5
                           performing any real work. However, under current practice, the government
                           is not a party to the subcontractor agreement or pricing structure and it is
                           generally not privy to the tiers of subcontractors below the first tier.

                           A brief illustration of a cost-reimbursable5 federal contract is provided in
                           Figure 2. In this illustration, the prime contractors hold cost-reimbursable
                           contracts with the federal government and then subcontract for some of the
                           goods or services necessary to fulfill the requirements of their contracts. In
                           this illustration, the subcontractors hold firm-fixed-price6 contracts with the
                           prime contractors or their subcontractors.

                           Figure 2: Multitiering Illustration




                           To understand the effect of multiple tiers of subcontracts on the cost to the
                           government, using the illustration, we will assume that each prime contractor
                           awards subcontracts to the Tier 1 subcontractors for a firm-fixed-price of
                           $1,000 for a particular service. That means the direct cost of that service that
                           the prime contractor can pass on to the government is $1,000. Whether the
5
  “Cost-reimbursement types of contracts provide for payment of allowable incurred costs, to the extent prescribed in the
contract. These contracts establish an estimate of total cost for the purpose of obligating funds and establishing a ceiling
that the contractor may not exceed (except at its own risk) without the approval of the contracting officer.” FAR Part
16.301-1.
6
  “A firm-fixed-price contract provides for a price that is not subject to any adjustment on the basis of the contractor’s
cost experience in performing the contract. This contract type places upon the contractor maximum risk and full
responsibility for all costs and resulting profit or loss. It provides maximum incentive for the contractor to control costs
and perform effectively, and imposes a minimum administrative burden on the contracting parties.” FAR Part 16.202-1.


                                        Hurricane Katrina Multitier Contracts

                                                          Page 6
                          Tier 1 subcontractor performs the service itself or subcontracts to a Tier 2
                          subcontractor, or whether the tiers of subcontracts are 4 or 5 layers deep, the
                          Tier 1 subcontractor can charge the prime contractor only $1,000 for the
                          service. This, in turn, limits what the prime contractor can charge the
                          government. Further, under the firm-fixed-price subcontract, whether the
                          actual cost to the Tier 1 subcontractor is $900, $500, or $300, the Tier 1
                          subcontractor is entitled to charge only $1,000 to the prime contractor.
                          Therefore, multiple tiers of contractors, as an isolated factor, do not increase
                          costs to the government.

                          It is important to note that, in most cases, the government has only a legal
                          relationship, or privity of contract, with the prime contractors. This limits the
                          amount of information on subcontracts to which the government is entitled.
                          Typically, the government has some visibility into the first tier of
                          subcontractors through their invoices to the prime contractors, but often the
                          government has little to no visibility into the levels of subcontractors below
                          the Tier 1 subcontractors. This means that the government usually does not
                          have any right to know how many layers of subcontracts exist on a contract or
                          what those subcontractors are charging to the contractor or subcontractor
                          above them.

                 Prime Contractors Use of Small and Local Businesses
                          In Congressional hearings, small business representatives expressed concern
                          that small and local firms were not provided an adequate opportunity to
                          participate in response and recovery contracts. FEMA’s reliance on large
                          national prime contractors initially prevented small and local businesses from
                          participating as prime contractors. However, the IA-TAC prime contractors
                          subcontracted a significant portion of their work to small and local businesses.

                          Based on the subcontracting reports provided by the IA-TAC prime
                          contractors, they exceeded FEMA’s goal for subcontracting to small
                          businesses (see Table 1).7 Although FEMA did not set specific goals for
                          hiring local businesses, FEMA instructed its IA-TAC contractors to use local
                          businesses to the maximum extent practicable. FEMA set the small business
                          subcontracting goal at 40%. Overall, the IA-TAC contractors reported that, of




7
  The U.S. Small Business Administration relies on small businesses to self-designate and accurately report their small
business status. We did not confirm the small business results provided by the prime contractors other than to compare a
sample of claims of small business status to the federal government’s Central Contractor Registration Internet site.


                                       Hurricane Katrina Multitier Contracts

                                                        Page 7
                           the $2.04 billion paid to subcontractors, $1.45 billion (71%) went to small
                           businesses and $1.26 billion (62%) went to local businesses.8

                           Table 1: IA-TAC Subcontracting Results

                             IA-TAC
                                                                                                        CH2M
                             Subcontracting Results
                                                             Fluor         Shaw          Bechtel         Hill       Percent
                             (dollars in millions)


                             Total Contract Value9             $1,350          $950            $517         $434


                             Amount Subcontracted                $712          $646            $323         $355       63%

                              - to Small Businesses              $475          $441            $265         $270        71%
                              - to Local Businesses              $378          $494            $227         $160        62%

                             Source: FEMA


                           The term “small business,” as defined by the U.S. Small Business
                           Administration for purposes of federal small business programs, might not be
                           considered “small” by a layman unfamiliar with federal small business
                           programs. The U.S. Small Business Administration uses “size standards” to
                           numerically define a small business. In most retail and service industries, a
                           company qualifies as a “small business” when its annual revenue is less than
                           $6.5 million. For most general and heavy construction industries, the size
                           standard is $31 million.10

                           While FEMA uses the U.S. Small Business Administration standards to
                           determine whether a business is “small,” prior to Hurricane Katrina, FEMA
                           had not developed clear definitions for how to determine whether a business
                           qualified as “local” for contracting purposes. In mid-2006, post-Katrina, the
                           General Services Administration issued new guidance to contracting officers
                           to use in determining whether a business is local to the disaster-affected area.
                           This guidance is available for use in future disasters.


8
  Many subcontractors were both small and local, and were therefore counted in both categories. Similarly, some
businesses could have been large, while still local to the disaster. For example, one large prime contractor was
headquartered in Louisiana. Also, subcontracting results only reflect the status of first-tier subcontractors. The status of
lower tiered subcontractors is not included.
9
  Katrina Small Business Subcontracting Report for February 2007. Source: FEMA
10
   13 Code of Federal Regulations Part 121.201.


                                        Hurricane Katrina Multitier Contracts

                                                          Page 8
           FEMA, under its Stafford Act authority, assigned the task of debris removal
           and disposal to the USACE. The USACE then awarded four $500 million
           contracts to large companies. In 2006 Congressional testimony, business
           representatives expressed concern that the USACE excluded small and local
           businesses from fully participating in the debris removal program. However,
           the USACE prime contractors also reported success subcontracting with small
           and local businesses. The U.S. Army Audit Agency reported that the four
           prime debris removal contractors paid a majority of the $889 million in
           subcontracting to local small businesses. As of May 10, 2006, the prime
           contractors reported they paid $762 million (86%) to small businesses and
           $582 million (65%) to local small businesses.

Effect of Post-Katrina Act on Future Disaster Contracting
           Section 692 of the Post-Katrina Act may adversely affect future disaster
           response and recovery efforts, including goals to use small and local
           businesses, by limiting the amount of funds available for subcontracting. It
           would limit first-tier subcontracting on certain contracts and task or delivery
           orders but would not directly limit the number of tiers allowable; thus, it does
           not specifically prevent multitiering.

           Section 692 of the Post-Katrina Act would limit the use of subcontractors to
           perform the principal work of a disaster response and recovery contract. It
           requires that disaster-related, cost-reimbursable contracts and task or delivery
           orders involve subcontracting of no more than “65 percent of the cost of the
           contract or the cost of any individual task or delivery order (not including
           overhead and profit).” It allows the DHS Secretary, however, to waive this
           requirement when it is determined that it is not feasible or practicable to
           restrict subcontracting to 65% of the prime contract amount. DHS is in the
           process of amending its Homeland Security Acquisition Regulations to
           implement this new contracting requirement.

           Had the Post-Katrina Act been in effect immediately following Hurricane
           Katrina and been applied to the four large IA-TAC contracts and their related
           task orders, it could have had the effect of requiring some of the work that was
           subcontracted to be done in-house by the prime contractors. This could have
           decreased the amount of dollars available to subcontractors, and possibly
           could have affected the ability of the prime contractors to fulfill their disaster
           response assignments in an effective and timely manner.

           To demonstrate the possible future effect Section 692 of the Post-Katrina Act
           could have on small and local businesses, we applied the subcontracting


                      Hurricane Katrina Multitier Contracts

                                     Page 9
                          limitations, as they would likely be implemented, to the Hurricane Katrina IA-
                          TAC prime contractor billings. We calculated that, had the requirement been
                          in effect following Hurricane Katrina, approximately $300 million worth of
                          subcontracting would not have been allowed (see Figure 3).

                          Figure 3: IA-TAC Subcontracting Dollars and Small and Local Business
                          Dollars Potentially Lost

                                                 Potential Loss Under 692 Regulations


                                Potential Loss
                                $314,245,166




                                                                                          $1,449,422,351



                                  Note: This calculation is based on task orders from the four IA-TAC
                                  contracts (See Appendix A).



                          Federal laws require FEMA to promote small and local business participation
                          in disaster response and recovery contracts. However, it is not always
                          practical for FEMA to have prime contracts with small and local businesses in
                          place prior to a disaster, or to contract directly with numerous small and local
                          businesses immediately after a disaster. Further, the response and recovery
                          tasks that follow catastrophic disasters like Hurricane Katrina are generally
                          too large for small businesses to perform effectively. However, to increase
                          small and local business participation once it became feasible, FEMA
                          awarded contracts for trailer maintenance and other services primarily to small
                          and local businesses.11

11
     DHS OIG, FEMA's Award of 36 Trailer Maintenance and Deactivation Contracts, OIG-07-36, March 30, 2007.


                                      Hurricane Katrina Multitier Contracts

                                                       Page 10
                         The 65% subcontracting limitation also could have a negative effect on
                         FEMA’s ability to respond quickly to future catastrophic disasters. This is
                         because subcontracting is the principal means available to prime contractors to
                         obtain the surge capacity needed to respond quickly.

                         Without a waiver from the Secretary of DHS, Section 692 of the Post-Katrina
                         Act could limit small and local business participation and reduce FEMA’s
                         ability to respond quickly. Further, while the Post-Katrina Act imposes limits
                         on the dollar amount of subcontracting, it would not actually restrict the
                         number of subcontracting tiers.

        Legislative Update
                         Congress is concerned about excessive tiering and related pass-through costs,
                         and has not settled on a single remedy. Since multitiering came to the
                         forefront of congressional interest in the wake of hurricanes Katrina and Rita,
                         as well as military actions in Iraq and Afghanistan, language has been
                         included in several bills to set limits on what is perceived as excessive
                         multitiering.

                         The language included in the Post-Katrina Act, enacted October 4, 2006, is
                         the most restrictive, specifying that the Secretary shall promulgate regulations
                         that require prime contractors to subcontract no more than 65% of the value of
                         the contract (see Appendix B). Also, the NDAA, enacted October 17, 2006,
                         requires the Secretary of Defense to:

                                  “prescribe regulations to ensure that pass-through charges on contracts
                                  or subcontracts (or task or delivery orders) … are not excessive in
                                  relation to the cost of work performed by the relevant contractor or
                                  subcontractor.” (see Appendix C).

                         In response to P.L. 109-364, the Department of Defense issued an interim rule
                         on April 26, 2007,12 that requires contractors to identify the percentage of
                         work that will be subcontracted and, when subcontract costs will exceed 70%
                         of the total cost of work to be performed, to provide information on indirect
                         costs, profit, and value added with regard to the subcontract work.13 It is
                         important to note that the Department of Defense rule does not limit

12
  Federal Register, Vol. 72, No. 80, April 26, 2007, p. 20758.

13
  The interim rule amends the Defense Federal Acquisition Regulation Supplement at 48 Code of Federal Regulations

Parts 215, 231, and 252, effective April 26, 2007, DFARS Case 2006-D057.



                                     Hurricane Katrina Multitier Contracts

                                                     Page 11
                            subcontracting, it requires additional reporting only when subcontracting
                            exceeds 70% of the total cost of the work to be performed.

                            On November 7, 2007, the Senate passed S. 680, the Accountability in
                            Government Contracting Act of 2007. As introduced, the bill included a
                            clause nearly identical to the tiering language in the Post-Katrina Act. This
                            clause required the Administrator of the Office of Federal Procurement Policy
                            (OFPP) to promulgate regulations to limit subcontracting to no more than 65%
                            of the value of the work to be performed under the contract.14 The language
                            was essentially identical to that in the Post-Katrina Act. S. 680 requires the
                            Administrator of OFPP to promulgate regulations to be applied government-
                            wide. Rather than specifying a specific limit on tiering, the Act requires the
                            OFPP Administrator to:

                                     “promulgate regulations…to minimize the excessive use by
                                     contractors of subcontractors or tiers of subcontractors in cases where
                                     a subcontractor does not perform work in proportion to any overhead
                                     or profit that the subcontractor receives under the contract.”15

                             In the report accompanying S. 680, the Committee wrote that it

                                     “does not intend to impose an absolute limit on tiering, but does intend
                                     that non-value added tiering be eliminated.”16

                            DHS is bound by the more restrictive language of the Post-Katrina Act.
                            However, the Department of Defense is in the process of finalizing
                            regulations, and the Administrator of OFPP may in the future promulgate
                            regulations for civilian agencies that use less restrictive language. DHS is
                            currently developing regulations according to the restrictions of the Post-
                            Katrina Act. However, should S. 680 be enacted in its present form, the
                            department should consider adopting the government-wide multitiering
                            regulations to be set by OFPP.

           Conclusion and Recommendation
                             Regulations required by Section 692 of the Post-Katrina Act could result in
                             reduced subcontracting opportunities for small and local businesses while
                             potentially impairing FEMA’s ability to respond quickly to catastrophic

14
     Accountability in Government Contracting Act of 2007, S.680, 110th Cong., 1st Sess. (2007), Subtitle C, Section 126.
15
     Accountability in Government Contracting Act of 2007, S.680, 110th Cong., 1st Sess. (2007), Title III, Section 305.
16
     S. Rep. No. 201, 110 Cong., 1st Session (2007).


                                         Hurricane Katrina Multitier Contracts

                                                          Page 12
           disasters. The Department of Defense has taken a less restrictive approach to
           subcontract tiering that does not present the risks inherent in Section 692.
           Also, pending legislation may allow other federal agencies to take a less
           restrictive approach to controlling tiering of subcontractors. Should this
           pending legislation be adopted in its present form, the department should
           consider requesting that it be allowed to adopt the less restrictive approach.

           We recommend that FEMA:

           1.	 Work with DHS officials, the Office of Federal Procurement Policy and
               Congress to promulgate less restrictive regulations over multi-tier
               contracting.

Miscellaneous Issue
           One prime contractor made two identical $625,225 invoice payments to a
           subcontractor for the installation of travel trailers in Louisiana. We discussed
           these duplicate charges with the IA-TAC contractor who said the second
           payment was a clerical error. The subcontractor immediately issued a
           $625,225 reimbursement check to the IA-TAC contractor who then
           reimbursed FEMA for the overcharges.

Management Comments and OIG Evaluation
           FEMA provided written comments on the draft of this report and generally
           concurred with the recommendation. FEMA commented that even though
           Section 692 would negatively impact small businesses, DHS remains required
           by law to promulgate regulations precluding contractors from using
           subcontractors for more than 65% of the cost of the contract or delivery order.
           However, FEMA agreed to work with DHS and OFPP to promulgate less
           restrictive regulations, and to work with Congress should legislation be
           considered that might provide an opportunity to modify the law. (FEMA’s
           written comments are contained in Appendix B.)




                      Hurricane Katrina Multitier Contracts

                                    Page 13
Appendix A
Purpose, Scope, and Methodology


                   Our objectives were to identify the extent and effect of multitier contracting,
                   and assess the potential effect Section 692 of the Post-Katrina Act could have
                   on future disaster contracting. Our fieldwork consisted of interviews with
                   FEMA and contractor personnel, document reviews, and analyses of financial
                   data. We gathered and reviewed information relating to the multitiering of
                   Hurricane Katrina contracts in order to gain an understanding of the issues
                   involving increased costs and small and local business participation. We
                   reviewed information from congressional testimony and prior OIG, Army
                   Audit Agency, Defense Contract Audit Agency, and Government
                   Accountability Office audit reports. We also reviewed relevant laws,
                   regulations, and FEMA policies, procedures and procurement guidelines.

                   We reviewed FEMA’s IA-TACs because they were among the largest disaster
                   response and recovery contracts, and they included $2.04 billion in
                   subcontracting. These contracts also constituted virtually all of DHS’
                   Hurricane Katrina cost-reimbursable contracting. As of the end of calendar
                   year 2006, the IA-TACs billed FEMA approximately $2.88 billion of the
                   $6.42 billion (45%) for Hurricane Katrina related work. We focused on trailer
                   installation task orders because they included the largest amount of
                   subcontracting. In total, we reviewed $236 million of the $2.04 billion in
                   subcontracting invoices (12%).

                   We conducted our fieldwork between February 2007 and July 2007. We
                   visited the four IA-TAC contractors and interviewed key personnel at each
                   location:

                       •   Fluor (Greenville, South Carolina);
                       •   Shaw (Findlay, Ohio);
                       •   Bechtel (Oak Ridge, Tennessee); and
                       •   CH2M Hill (Englewood, Colorado).

                   During our visits, we reviewed invoices, accounting records, and subcontract
                   agreements. We also traced subcontractor invoices to prime contractor
                   invoices submitted to FEMA.

                   To perform the calculations reported in Figure 3, we obtained task order cost
                   information from all four IA-TACs and reduced the overall task order costs by
                   their related overhead and profit. We then compared these figures, (i.e., the
                   amount that would presumably be allowed under Section 692), to the amount
                   that was actually subcontracted to identify the dollar value of subcontracting
                   that would have exceeded the 65% limitation.




                             Hurricane Katrina Multitier Contracts

                                            Page 14
Appendix A
Purpose, Scope, and Methodology


                   The Defense Contract Audit Agency assisted us by verifying the IA-TAC
                   financial data provided by the contractors to the contractor’s financial
                   accounting system.

                   We conducted the audit under the authority of the Inspector General Act of
                   1978, as amended, and according to generally accepted Government Auditing
                   Standards.




                             Hurricane Katrina Multitier Contracts

                                           Page 15
Appendix B
Management Comments to the Draft Report




                            Hurricane Katrina Multitier Contracts

                                          Page 16
Appendix B
Management Comments to the Draft Report




                            Hurricane Katrina Multitier Contracts

                                          Page 17
Appendix C
Public Law 109-295, Title VI, Section 692


Section 692 of the Post-Katrina Emergency Management Reform Act of 2006, adopted as Title VI of
the Department of Homeland Security Appropriations Act of 2007 (P.L. 109-295), which was signed
into law on October 4, 2006.

SEC. 692. LIMITATION ON TIERING OF SUBCONTRACTORS.

       (a) REGULATIONS.—The Secretary shall promulgate regulations applicable to contracts
           described in subsection (c) to minimize the excessive use by contractors of subcontractors
           or tiers of subcontractors to perform the principal work of the contract.

       (b) SPECIFIC REQUIREMENT.—At a minimum, the regulations promulgated under
           section (a) shall preclude a contractor from using subcontracts for more than 65 percent
           of the cost of the contract or cost of any individual task or delivery order (not including
           overhead and profit), unless the Secretary determines that such requirement is not
           feasible or practicable.

       (c) COVERED CONTRACTS.—This section applies to any cost-reimbursable type contract
           or task or delivery order in an amount greater than the simplified acquisition threshold (as
           defined by section 4 of the Office of Federal Procurement Policy Act (41 U.S.C. 403)
           entered into by the Department to facilitate response to or recovery from a natural
           disaster or act of terrorism or other manmade disaster.




                                 Hurricane Katrina Multitier Contracts

                                                Page 18
Appendix D
Public Law 109-364, Title VIII, Section 852


Section 852 of the John Warner National Defense Authorization Act for Fiscal Year 2007 (P.L. 109-
364), which was signed into law on October 17, 2006.

SEC. 852. REPORT AND REGULATIONS ON EXCESSIVE PASS-THROUGH CHARGES.

       (a) Comptroller General Report on Excessive Pass-Through Charges-

       (1) IN GENERAL- Not later than 180 days after the date of the enactment of this Act, the
       Comptroller General shall issue a report on pass-through charges on contracts or subcontracts
       (or task or delivery orders) that are entered into for or on behalf of the Department of
       Defense.

       (2) MATTERS COVERED- The report issued under this subsection--
             (A) shall assess the extent to which the Department of Defense has paid excessive
             pass-through charges to contractors who provided little or no value to the
             performance of the contract;
             (B) shall assess the extent to which the Department has been particularly vulnerable
             to excessive pass-through charges on any specific category of contracts or by any
             specific category of contractors (including any category of small business); and
             (C) shall determine the extent to which any prohibition on excessive pass-through
             charges would be inconsistent with existing commercial practices for any specific
             category of contracts or have an unjustified adverse effect on any specific category of
             contractors (including any category of small business).

       (b) Regulations Required-

       (1) IN GENERAL- Not later than May 1, 2007, the Secretary of Defense shall prescribe
       regulations to ensure that pass-through charges on contracts or subcontracts (or task or
       delivery orders) that are entered into for or on behalf of the Department of Defense are not
       excessive in relation to the cost of work performed by the relevant contractor or
       subcontractor.

       (2) SCOPE OF REGULATIONS- The regulations prescribed under this subsection--
             (A) shall not apply to any firm, fixed-price contract or subcontract (or task or delivery
             order) that is--
                     (i) awarded on the basis of adequate price competition; or
                     (ii) for the acquisition of a commercial item, as defined in section 4(12) of the
                     Office of Federal Procurement Policy Act (41 U.S.C. 403(12)); and
             (B) may include such additional exceptions as the Secretary determines to be
             necessary in the interest of the national defense.

       (3) DEFINITION- In this section, the term ‘excessive pass-through charge’, with respect to a
       contractor or subcontractor that adds no, or negligible, value to a contract or subcontract,
       means a charge to the Government by the contractor or subcontractor that is for overhead or


                                 Hurricane Katrina Multitier Contracts

                                               Page 19
Appendix D
Public Law 109-364, Title VIII, Section 852


       profit on work performed by a lower-tier contractor or subcontractor (other than charges for
       the direct costs of managing lower-tier contracts and subcontracts and overhead and profit
       based on such direct costs).

       (4) REPORT- Not later than one year after the date of the enactment of this Act, the
       Secretary of Defense shall submit to the congressional defense committees a report on the
       steps taken to implement the requirements of this subsection, including--
               (A) any standards for determining when no, or negligible, value has been added to a
               contract by a contractor or subcontractor;
               (B) any procedures established for preventing excessive pass-through charges; and
               (C) any exceptions determined by the Secretary to be necessary in the interest of the
               national defense.

       (5) EFFECTIVE DATE- The regulations prescribed under this subsection shall apply to
       contracts awarded for or on behalf of the Department of Defense on or after May 1, 2007.




                                 Hurricane Katrina Multitier Contracts

                                               Page 20
Appendix E
Major Contributors to this Report


                      Donald Bumgardner, Disaster Acquisition Division Director
                      Mary Anne Strasser, Audit Manager
                      Christopher Dodd, Audit Manager
                      John Polledo, Auditor-in-Charge
                      William Lough, Auditor
                      Patricia Leroux, Program Analyst
                      Cheryl Johnson, Auditor




                                Hurricane Katrina Multitier Contracts

                                              Page 21
Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Under Secretary for Management
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Procurement Officer
                      Director, DHS GAO/OIG Liaison Office
                      Chief Privacy Officer
                      FEMA Deputy Administrator
                      FEMA Audit Liaison
                      FEMA Director of Management and Chief Acquisition Officer
                      FEMA Chief Procurement Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                                 Hurricane Katrina Multitier Contracts

                                               Page 22
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
